WAIVER

Supreme Court of the United States

No. 19-459
Texas Brine Company, LLC N. Florida Gas Transmission Company,
LLG, et al.
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
OQ Please enter my appearance as Counsel of Record for all respondents.

there are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Zurich America’ Insurance (ampany, American
Guarantee. f Lich: I, ug Insurence. Gunpery, Stead Gst lawrence.

 

 

 

aft. Compan
Iam a member of the Bar of the Supreme Court of the United States.
O lam not presently a member of the Bar of this Court. Should a response be requested,

the response will beAile: Bar member.

Signature

Date: 10 [3/ vw! F.

_—
(Type or print) Name. Gle n_E- ”) ercer_
CM. OMs. O Mrs. O Miss

Firm Selley, Hite, Mercer ¢ Resor, LLC

iin GS’ Cone Street, Site 1710

City & Stare_Ve w/ Oc lecas y La Zip 7080
Phone SUY4~ 5bG- 660)

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce: Pact Hughes”
Me Dermott WI 4 Emer A
SU) Morty (Capital Steet, V'
Wishinstery PC aco |

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
